a.

Case No.:
IN THE SUPREME COURT OF THE UNITED STATES
In re DIMITRI JONTHIEL PATTERSON, PETITIONER
v.

FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES

PETITION FOR WRIT OF HABEAS CORPUS

Date: June 7, 2021

Dimitri Jonthiel Patterson
16877 East Colonial Drive
Unit 403
Orlando, FL 32820
407-777-2269

Supreme Court, u.s.
FILED

JUN 0 9 2021
ncpir.p OF THE CLERK

QUESTIONS PRESENTED
Should a Petitioner raising a 28 U.S.C. §2241 Habeas Corpus,
remain in State custody without certified legal documentation in
violation of his constitutional rights?

ii

PARTIES TO THE PROCEEDINGS BELOW
The Petitioner is^
Dimitri Jonthiel Patterson.
The Respondent is:
Florida Department of Children and Families

iii

TABLE OF CONTENTS
Questions Presented,

.11

Parties to the Proceedings

m

Table of Contents

1V'V

Table of Appendix,

,v

Table of Authorities

.vrvm

Petition for Writ of Habeas
Corpus

1

Statement of Jurisdiction

1

Custody,

1

Constitutional Provisions

1-2

Statement of the Case

2-5

Grounds for Habeas Relief.

5

Reasons for Granting Writ.

5-7

Florida Statute §27.181

7-8

Florida Statute §28.222

8-9

Florida Rules of Criminal Procedure 3.131

9

Florida Rules of Judicial Administration 2.520

911

iv

Conclusion and Relief.

12

Verification

13

APPENDICES
TABLE OF APPENDIX
APPENDIX A

Florida Third District Court of Appeals purported

uncertified Order denying Petitioner’s Habeas Corpus
APPENDIX B

Florida Supreme Court’s purported uncertified order

transferring the petition for Habeas Corpus down to the Lower Tribunal
Court
APPENDIX C

U.S District Court for the Southern District of

Florida’s Order dismissing the Habeas Corpus, and Docket Text denial
of a Certificate of Appealability
APPENDIX D

Purported Final Disposition in Case B'15 034548

APPENDIX E

Purported F-17-061392 Alias Capias, and

Email/Warrant Arrest Affidavit
APPENDIX F

Purported Charging Document for Case B-15-03458

APPENDIX G

Purported Charging Document for Case F-17-061392

v

TABLE OF AUTHORITIES
Bankers Life & Casualty Co. v. Holland,
346 U.S. 379, 383, 74 S. Ct.
145, 98 L. Ed 106 (1953)

5

Braden v. 30th Judicial Circuit Court ofKy.,
410 U.S. 484-495 (1973)

6

Ex Parte Grossman,
267 U.S. 87 (1925)

6

Ex Parte Hudgings,
249 U.S. 378 (1919)

6

Ma tier ofHeff,
197 U.S. 488 (1905)

6

Wales v. Whitney,
114 U.S. 564, 574(1885)

6

Will, 389 U.S.,
at 95, 88 S. Ct. 269, 542
U.S. 367, 380 (2004)

5

Will v. United States,
389 U.S. 90, 95, 88 S. Ct. 269,

vi

19 L. Ed. 2d 305 (1967)

5

RULES
28 U.S.C. §1746

13

28 U.S.C. §2241

ii, 1, 2, 6, 7

28 U.S.C. §224l(c)(3)

7

28 U.S.C. §2242

1,5

28 U.S.C. §2243

1

Federal Rules of Criminal
Procedure 4(l)(d)

4

Florida Rules of Criminal
Procedure 3.121

4

Florida Rules of Criminal Procedure 3.131

7,9

Florida Rules of Judicial Administration 2.520

7,9

U.S. Supreme Court Rule 20.4(a)

2, 5

U.S. Supreme Court Rule 22

1

FLORIDA STATUTES
Florida Statute §27.181

7-8

Florida Statute §28.222

7-8

Florida Statute §901.02

4

vii

U.S. CONSTITUTIONAL AMENDMENTS
Fourth Amendment

5

Fifth Amendment.

1,5

Thirteenth Amendment

2,5

Fourteenth Amendment

1, 5

/»

viii

PETITION FOR WRIT OF HABEAS CORPUS
I, Dimitri Jonthiel Patterson, hereby respectfully petitions this Court for a
Writ of Habeas Corpus.
STATEMENT OF JURISDICTION
This Court’s jurisdiction is invoked pursuant to 28 U.S.C. §2241.
Pursuant to 28 U.S.C. §2242,1 am not filing this Petition in the District
where I am being unlawfully detained, because I have filed similar Petitions with
the U.S. District Court for the Southern District of Florida, and that Court has
failed to issue rulings pursuant to 28 U.S.C. §2243.
Pursuant to 28 U.S.C. §2241 and Rule 22 of the Rules of the Supreme Court
of the United States, I make this application to the Honorable U.S. Supreme Court
Associate Justice Sonia Sotomayor.
CUSTODY
I am currently being unlawfully detained at the South Florida Evaluation
and Treatment Center, a facility within the Florida Department of Children and
Families, located at 18680 S.W. 376th Street Florida City, Florida, 33034, since
January 27, 2020. This Petition must also issue to all Florida Municipal County
Jails, all Florida State Psychiatric Hospitals, and all Florida State Prisons, for the
purpose of the Respondents undermining this Habeas Corpus.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Due Process Clause, which is stated in the Fifth and Fourteenth
Amendments is a safeguard from arbitrary denial of fife, liberty or property by the

1

Government. The Thirteenth Amendment abolishes involuntary servitude except as
punishment.
28 U.S.C § 2241-The Writ of Habeas Corpus shall not extend to a prisoner
unless
(l) He is in custody under or by color of the authority of the United States or is
committed for trial before some court thereof, or,
(3) He is in custody in violation of the Constitution or laws or treaties of the United
States.
STATEMENT OF THE CASE
Pursuant to Rule 20.4(a), the following extraordinary circumstances warrants
this Court’s discretionary powers^
On October 23, 2018, I noticed an Orange County Sheriffs Police vehicle
following me as I was exiting off of the 408 Expressway.
I turned into the RaceTrac gas station located at West Colonial Drive and
South Bluford Road. I then proceeded to exit my vehicle to pump gas and noticed
two more police vehicles entering into the RaceTrac gas station. After pumping the
gas, I reentered my vehicle and without probable cause, three Orange County Police
Department vehicles, hereinafter (OCPD) and one Ocoee Police Department vehicle,
hereinafter (OPD) began circling my vehicle, and at that time, I told my Mother to
call 911/the Sheriffs Office because numerous Officers were surrounding me.
Immediately after, one OCPD Officer pulled in front of my vehicle, one OCPD
Officer pulled behind my vehicle, and the OPD Officer pulled up on the Driver’s side

2

of my vehicle for the purpose of barricading me in. The OGPD Officer in front of my
vehicle, later identified as Johnathan Reeves, exits his vehicle with his revolver
drawn. The OCPD Officer in the back of my vehicle, later to be identified as Terris
Winbum, exits his vehicle with his revolver drawn. Officer Jonathan Reeves
proceeded to tell me to get out of the vehicle and to get off the phone, which at that
time, the OPD Officer exited his vehicle and proceeded to place handcuffs on me and
guided me to the back seat of an OCPD Officer’s vehicle. At this point and time, six
additional OCPD Officers pulled in, and immediately thereafter, they began to
illegally search my vehicle, without stating their purpose, or, legally identifying me
as their suspect, proving this to be an illegal ambush. Then Officer Terris Winburn
proceeds to transport me to the Orange County Florida Jail. After I made several
demands to see the official warrant, which Terris Winburn never produced, the
Orange County Florida Jail proceeded to illegally receive me once again without a
valid warrant pursuant to the Florida Rules of Criminal Procedures and the Florida
Rules of Judicial Administration, or/and, not adhering to the Florida Statutes. I was
booked in the Orange County Florida Jail on October 23, 2018 at 6-25PM.
On October 24, 2018 at an Orange County Jail purported Bond Hearing,
Judge Jeanette Bigney proceeded to retaliate against me stating that the non­
existent warrant is valid and then stated that I will be detained at the Orange
County Florida Jail until Miami-Dade County picks me up. I made several requests
on record to inspect the warrant, and Judge Bigney denied me of that right. Federal

3

Rules of Criminal Procedure - Rule 4(d) states “A warrant must be signed by a
Judge”.
On October 29, 2018 at 11;53AM and after multiple email requests to Orange
County Correction Officials to see the arrest warrant that had me in their custody,
Officer Arthur Willis of Orange County Corrections emailed Ms. Thabet an invalid
“alias capias” that was not pursuant to Florida Statue §901.02 and Florida Rules of
Criminal Procedure 3.121, and did not include, (l) The issuing Judge’s signature
pursuant to Federal Rules of Criminal Procedure Rule 4(l)(d), (2) The warrant did
not have a Deputy Clerk’s signature, (3) a court seal or, (4) a filing stamp or
Electronic Filing Certification.
After a Writ of Habeas Corpus was filed in the Ninth Judicial Circuit Court of
Florida, and Ms. Thabet advised Officer Willis of the warrant defects, I was
immediately transported by Miami-Dade County to the Turner Guilford Knight
Correctional Center (TGK) on October 31, 2018, where the Orange County Florida
Jail card read, “DO NOT RETURN.”
I was detained at TGK for fourteen months.
On January 27, 2020 at 3^00AM, ten TGK Correctional Officers coerced me to
leave Cell 8103 by falsely stating that, “You are being released”, where afterwards,
they attempted to hand me civilian clothing that did not belong to me and I refused.
Thereafter, ten TGK Correctional Officers forced me into a vehicle to be
transported away from TGK to the South Florida Treatment & Evaluation Center

4

(SFETC) located at 18680 S.W. 37th Street, Homestead, FL 33034, 786-349-6000,
where I am currently being unlawfully detained.

GROUNDS FOR HABEUS CORPUS RELIEF
By my Petition for a Writ of Habeas Corpus, I, Dimitri Jonthiel Patterson,
assert the fact of being unlawfully detained pursuant to the Fourth Amendment
and based on a purported warrant and purported cases where my Fourth, Fifth,
Thirteenth, and Fourteenth Amendment Rights are being violated.
REASONS FOR GRANTING THE WRIT
A petition seeking a writ of habeas corpus shall comply with the
requirements of 28 U. S. C. § 2241 and 28 U. S. C. § 2242, and in particular with the
provision in the last paragraph of 28 U.S.C. §2242, which requires a statement of
the “reasons for not making application to the district court of the district in which
the applicant is held.”
To justify the granting of a writ of habeas corpus, the petitioner must show
that exceptional circumstances warrant the exercise of the Court’s discretionary
powers, and that adequate relief cannot be obtained in any other form or from any
other court. (Rule 20.4(a), Rules of the U.S. Supreme Court)
Although courts have not “confined themselves to an arbitrary and technical
definition of‘jurisdiction,’ ” Will v. United States, 389 U.S. 90, 95, 88 S. Ct. 269, 19
L.Ed.2d 305 (1967), “only exceptional circumstances amounting to a judicial
‘usurpation of power,’ ” ibid., or a “clear abuse of discretion,” Bankers Life &
Casualty Co. v. Holland, 346 U.S. 379, 383, 74 S. Ct. 145, 98 L. Ed. 106(1953), “will

5

justify the invocation of this extraordinary remedy,” Will, 389 U.S., at 95, 88S. Ct.
269, 542 US. 367, 380 (2004).
This case presents exceptionally rare circumstances that warrant this courts
original Habeas jurisdiction.
I have been maliciously prosecuted, unlawfully arrested, and am currently
being illegally detained, which is in direct violation of the United States
Constitution.
I am being unlawfully detained by the South Florida Evaluation and
Treatment Center, whose in the clear absence of jurisdiction, and have asserted
facts in this Petition that cannot be disputed with evidence from the Respondent,
and therefore, I am entitled to immediate release. Wales v. Whitney, 114 U. S. 564.
1574 (1885) (emphasis added); see also Braden v. 30th Judicial Circuit Court of
Kv.. 410 U. S. 484. 494-495 (1973); Ex Parte Grossman. 267 US. 87 (1925); Ex
Parte Hudeines. 249 US. 378 (1919);Matter ofHeff. 197 US. 488 (1905)
The U.S. Supreme Court has the power to discharge a detainee who is in
custody in violation of the United States Constitution. 28 U.S.C. §224l(c)(3).
The great writ of habeas corpus ad subjiciendum, is among the most precious
safeguards of personal liberty. The right to a writ of habeas corpus is guaranteed
by 28 U.S.C. §2241.
The proper grounds for jurisdiction for a writ of habeas corpus are found in
28 U.S.C. §2241.

6

I am citing a “miscarriage of justice” element to this Habeas Corpus. I have
reflected by the above that I am currently unlawfully detained in violation of the
United States Constitution.
Here, I have not obtained adequate relief in any form or in any other Court
due to a usurpation of justice by the Eleventh Judicial Circuit of Florida in and for
Miami-Dade County, Third District Court of Appeals of Florida, and the Supreme
Court of Florida, abuse of discretion by the United States Court for the Southern
District of Florida, the U.S. Court of Appeals for the Eleventh Circuit, and the U.S.
District Court for the District of Columbia. (Also See Dimitri Patterson v. MiamiDade Corrections and Rehabilitation, Case Number 19-10721, and Dimitri
Patterson v. Miami-Dade County, et al., Case Number 19-10226-HH).
Secondly, I have clearly protected rights guaranteed to me by the United
States Constitution of which I have been deprived through malicious prosecution,
unlawful arrests, and unlawful detainment. The unlawful detainment is in
connection with purported Florida State Criminal Case F-17-016392, and the State
of Florida has no jurisdiction over me pursuant to Florida Statute §27.181, Florida
Statute §28.222, Florida Rules of Criminal Procedure 3.131, and Florida Rules of
Judicial Administration, 2.520.
Lastly, the issuance of a Writ of Habeas Corpus by this Court is appropriate,
because it protects my constitutional rights, and safeguards the public’s interests.
FLORIDA STATUTE §27.181

7

Florida Statute §27.181(1) states: No such appointee shall perform any of the
duties of an Assistant State Attorney until he or she have taken and subscribed to a
written oath that he or she will faithfully perform the duties of Assistant State
Attorney and shall have caused the oath to be recorded in the Office of the Clerk of
the Circuit Court of the county in which the appointing State Attorney resides.
Upon the recordation of such appointment and oath, the appointing State Attorney
shall promptly cause certified copies thereof to be transmitted to the Secretary of
State. Florida Statute §27.181(2) states: No such assistant State Attorney may sign
Filings of Information unless specifically designated to do so by the State Attorney.
A Filing of Information must be signed by the designated assistant State Attorney
and the failure of an Assistant State Attorney to sign a Filing of Information, voids
the charging document (Florida Jur. 2d 1163, 1164 & 1165).
FLORIDA STATUTE §28.222
(1)

The clerk of the circuit court shall be the recorder of all instruments that

he or she may be required or authorized by law to record in the county where he or
she is clerk.
(2) The clerk of the circuit court shall record all instruments in one general
series called “Official Records.” He or she shall keep a register in which he or she
shall enter at the time of filing the filing number of each instrument filed for record,
the date and hour of filing, the kind of instrument, and the names of the parties to
the instrument. The clerk shall maintain a general alphabetical index, direct and

8

inverse, of all instruments filed for record. The register of Official Records must be
available at each office where official records may be filed.
FLORIDA RULES OF CRIMINAL PROCEDURE 3.131
On the filing of either an indictment or information charging the commission
of a crime, if the person named therein is not in custody or at large on bail for the
offense charged, the judge shall issue or shall direct the clerk to issue, either
immediately or when so directed by the prosecuting attorney, a capias for the arrest
of the person. If the person named in the indictment or information is a child and
the child has been served with a promise to appear under the Florida Rules of
Juvenile Procedure, capias need not be issued. Upon the filing of the indictment or
information, the judge shall endorse the amount of bail, if any, and may authorize
the setting or modification of bail by the judge presiding over the defendant’s first
appearance hearing. This endorsement shall be made on the capias and signed by
the judge.
FLORIDA RULES OF JUDICIAL ADMINISTRATION, 2.520
(a) Electronic Filing Mandatory. All documents filed in any court shall be
filed by electronic transmission in accordance with rule 2.525. “Documents” means
pleadings, motions, petitions, memoranda, briefs, notices, exhibits, declarations,
affidavits, orders, judgments, decrees, writs, opinions, and any paper or writing
submitted to a court.
(b) Type and Size. Documents subject to the exceptions set forth in rule 2.525(d)
shall be legibly typewritten or printed, on only one side of letter sized (8 1/2 by 11

9

inch) white recycled paper with one inch margins and consecutively numbered
pages. For purposes of this rule, paper is recycled if it contains a minimum content
of 50 percent waste paper. Reduction of legal-size (8 1/2 by 14 inches) documents to
letter size (8 1/2 by 11 inches) is prohibited. All documents filed by electronic
transmission shall comply with rule 2.526 and be filed in a format capable of being
electronically searched and printed in a format consistent with the provisions of this
rule.
(c) Exhibits. Any exhibit or attachment to any document may be filed in its original
size.

(d) Recording Space and Space for Date and Time Stamps.
(l) On all documents prepared and filed by the court or by any party to a proceeding
which are to be recorded in the public records of any county, including but not
limited to final money judgments and notices of lis pendens, a 3- inch by 3-inch
space at the top right-hand corner on the first page and a 1-inch by 3-inch space at
the top right-hand corner on each subsequent page shall be left blank and reserved
for use by the clerk of court.
(2) On all documents filed with the court, a 1-inch margin on all sides must be left
blank for date and time stamps.
(A) Format. Date and time stamp formats must include a single line detailing the
name of the court or Portal and shall not include clerk seals. Date stamps must be 8
numerical digits separated by slashes with 2 digits for the month, 2 digits for the
date, and 4 digits for the year. Time stamps must be formatted in 12 hour time

10

frames with a.m. or p.m. included. The font size and type must meet the Americans
with Disabilities Act requirements.
(B) Location. The Portal stamp shall be on the top left of the document. The Florida
Supreme Court and district courts of appeal stamps shall be on the left margin
horizontally. Any administrative agency stamp shall be on the right margin
horizontally. The clerk’s stamp for circuit and county courts shall be on the bottom
of the document.
(C) Paper Filings. When a document is filed in paper as authorized by rule, the
clerk may stamp the paper document in ink with the date and time of filing instead
of, or in addition to, placing the electronic stamp as described in subdivision (B).
The ink stamp on a paper document must be legible on the electronic version of the
document, and must neither obscure the content or other date stamp, not occupy
space otherwise reserved by subdivision (B).
(e) Exceptions to Recording Space. Any documents created by persons or entities
over which the filing party has no control, including but not limited to wills, codicils,
trusts, or other testamentary documents; documents prepared or executed by any
public officer; documents prepared, executed, acknowledged, or proved outside of
the State of Florida; or documents created by State or Federal government agencies,
may be filed without the space required by this rule.
00 Noncompliance. No clerk of court shall refuse to file any document because of
noncompliance with this rule. However, upon request of the clerk of court.
noncomplying documents shall be resubmitted in accordance with this rule.

11

CONCLUSION AND RELIEF SOUGHT
For all the reasons discussed herein, I, Dimitri Jonthiel Patterson,
respectfully urge this Honorable Court to grant Habeas Corpus relief under 28
U.S.C. §2241.

Dimitri Jonthiel Patterson
16877 East Colonial Drive
Unit 403
Orlando, FL 32820
Phone: 407-777-2269

12

VERIFICATION
Pursuant to 28 U.S.C. §1746,1, Dimitri Jonthiel Patterson, declare as follows^
1.

As a citizen of the United States of America, and a resident of Florida, I am

filing the above Petition for Writ of Habeas Corpus,
2.

I have personal knowledge of the factual statements set forth in the foregoing

Petition for Writ of Habeas Corpus, and if called on to testify, I would competently
testify as to the matters stated herein.
3.

I verify under penalty of perjury under the laws of the United States of

America, that the factual statements in this Petition concerning myself as the
Petitioner, and the actions of the State Officers named in this Petition, are true and
correct.
Executed on June 7, 2021

f
=^WtcSL ’j>
Dimitri Jonthiel Patterson
16877 East Colonial Drive
Unit 403
Orlando, FL 32820
407-777-2269

13

Case No.:
IN THE SUPREME COURT OF THE UNITED STATES
In re DIMITRI JONTHIEL PATTERSON, PETITIONER

APPENDICES FOR PETITION FOR
WRIT OF HABEAS CORPUS

. Date: June 7, 2021

Dimitri Jonthiel Patterson
16877 East Colonial Drive
Unit 403
Orlando, FL 32820
407-777-2269

PROOF OF SERVICE
I, Ramesha L. Glover, pursuant to Rule 29.5(c) of the Supreme Court of the United
States, served one copy of the Petition for Writ of Habeas Corpus and one copy of
the Appendices to the Petition for Writ of Habeas Corpus to the Florida Department
of Children and Families (Shevaun Harris), via Federal Express on, June 7, 2021.

Secretary Shevaun Harris
Florida Department of Children and Families
1317 Winewood Boulevard
Building 1 - Room 202
Tallahassee, FL 32399
-_
Tracking Number:
l Wl ( 0&1
All parties that are required to be served have been served pursuant to Rule 29.5 of
the Supreme Court of the United States.
Pursuant to 28 U. S. C. §1746,1, Ramesha L. Glover, declare under penalty of
penury that the foregoing is true and correct.

Executed on June 7, 2021

Additional material
from this filing is
available in the
Clerk's Office.

